  AUDIT OF NATIONAL INSTITUTE OF JUSTICE

 DNA BACKLOG REDUCTION PROGRAM GRANTS

             AWARDED TO THE

ALABAMA DEPARTMENT OF FORENSIC SCIENCES



         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


        Audit Report GR-40-14-001

                March 2014

          AUDIT OF NATIONAL INSTITUTE OF JUSTICE

DNA BACKLOG REDUCTION PROGRAM GRANTS AWARDED TO THE

      ALABAMA DEPARTMENT OF FORENSIC SCIENCES

                                    EXECUTIVE SUMMARY

          The Department of Justice (DOJ) Office of the Inspector General, Audit
  Division, has completed an audit of DNA Backlog Reduction Program grants
  awarded by the National Institute of Justice to the Alabama Department of Forensic
  Sciences. 1 The primary goal of the DNA backlog reduction program is to assist
  eligible states and units of local government to reduce forensic DNA sample
  turnaround time and increase the production of public DNA laboratories. From
  2009 through 2012, the Department of Forensic Sciences received $7,525,176 for
  seven grants.

  Audit Results

         The purpose of the audit was to determine whether the Department of
  Forensic Sciences used grant funds for costs that were allowable, supported, and in
  accordance with applicable laws, regulations, guidelines, and terms and conditions
  of the grants; and whether the Department of Forensic Sciences met or was on
  track to meet the goals and objectives outlined in the grant programs and
  applications.

         The objective of the audit was to determine whether the Department of
  Forensic Sciences complied with essential grant conditions pertaining to:
  (1) internal controls, (2) grant drawdowns, (3) grant expenditures, (4) budget
  management and control, (5) property management, (6) financial and grant
  progress reports, (7) grant goals and accomplishments, and
  (8) monitoring contractors.

        We found that the Department of Forensic Sciences generally complied with
  the essential grant conditions we tested.

         Our results are discussed in detail in the Findings and Recommendations
  section of the report. Our audit Objectives, Scope, and Methodology are discussed
  in Appendix I.




          1
             DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells that
  contains encoded information necessary for building and maintaining life. Approximately 99.9 percent
  of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow
  scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual
  by analyzing a specimen containing DNA.
                                                      i
                                     TABLE OF CONTENTS


INTRODUCTION ..........................................................................................1

  Background................................................................................................ 1

  Audit Approach ........................................................................................... 2

FINDINGS AND RECOMMENDATIONS ..........................................................4

  Internal Controls......................................................................................... 4

     Financial Management System................................................................... 4

     Single Audits ........................................................................................... 4

     Backlog Verification Testing....................................................................... 4

  Drawdowns ................................................................................................ 5

  Grant Expenditures ..................................................................................... 5

  Budget Management and Control .................................................................. 5

  Property Management ................................................................................. 6

  Grant Reports............................................................................................. 6

     Financial Reports ..................................................................................... 7

     Progress Reports...................................................................................... 7

  Grant Goals and Accomplishments ................................................................ 7

  Monitoring Contractors ................................................................................ 8

  Conclusion ................................................................................................. 9

APPENDIX I          - OBJECTIVES, SCOPE, AND METHODOLOGY ...................... 10

APPENDIX II - OJP’S RESPONSE TO THE DRAFT AUDIT REPORT ............. 11

APPENDIX III - THE ALABAMA DEPARTMENT OF FORENSIC SCIENCES

               RESPONSE TO THE DRAFT AUDIT REPORT....................... 12

                                        INTRODUCTION

       The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of DNA Backlog Reduction Grants awarded by the
National Institute of Justice (NIJ), to the Alabama Department of Forensic
Sciences. 2 The primary goal of the DNA backlog reduction program is to assist
eligible states and units of local government to reduce forensic DNA sample
turnaround time and increase the production of public DNA laboratories.

     As shown in the following exhibit, from 2009 through 2012, the NIJ
awarded the Department of Forensic Sciences $7,525,176 for seven grants.

                 Exhibit 1: DNA Backlog Reduction Grants Awarded
                      to the Department of Forensic Sciences
                         Award            Award Start         Award             Award
                        Number              Date             End Date          Amount

                   2009-D1-BX-K014         10/01/2009       07/31/2014           $1,000,000

                   2009-DN-BX-K117         10/01/2009       03/31/2012              947,152

                   2010-DD-BX-0604         10/01/2010       09/30/2014            1,400,000

                   2010-DN-BX-K034         10/01/2010       03/31/2012              593,807

                   2010-DN-BX-K115         10/01/2010       12/31/2012              977,422

                   2011-DN-BX-K423         10/01/2011       03/31/2013            1,489,966

                   2012-DN-BX-0062         10/01/2012       03/31/2014            1,116,829
                                          Total                                 $7,525,176
                 Source: Office of Justice Programs

Background

     The Alabama Department of Forensic Sciences is an independent state
agency, which provides forensic services to law enforcement agencies throughout
Alabama. The Department of Forensic Sciences is headquartered in Auburn,
Alabama. It maintains four regional laboratories located in Huntsville, Birmingham,
Montgomery, and Mobile. The Department of Forensic Sciences seeks to provide
unbiased scientific analysis of evidence in the pursuit of justice in the criminal
system.


        2
           DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells that
contains encoded information necessary for building and maintaining life. Approximately 99.9
percent of human DNA is the same for all people. The differences found in the remaining 0.1
percent allow scientists to develop a unique set of DNA identification characteristics (a DNA
profile) for an individual by analyzing a specimen containing DNA.


                                                     1

      The National Institute of Justice, a component of the Office of Justice
Programs (OJP), is the research, development, and evaluation agency of the DOJ
and is dedicated to improving knowledge and understanding of crime and justice
issues through science. The National Institute of Justice seeks to provide objective
and independent knowledge and tools to reduce crime and promote justice,
particularly at the state and local levels.

Audit Approach

       The purpose of this audit was to determine whether the Department of
Forensic Sciences used grant funds for costs that were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and conditions
of the grants; and whether the Department of Forensic Sciences met or was on
track to meet the goals and objectives outlined in its grant programs and
applications.

       The objective of the audit was to determine whether the Department of
Forensic Sciences complied with essential grant conditions pertaining to:
(1) internal controls, (2) grant drawdowns, (3) grant expenditures, (4) budget
management and control, (5) property management, (6) financial and grant
progress reports, (7) grant goals and accomplishments, and (8) monitoring
contractors.

       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria we audit
against are contained in the grant award documents, OJP Financial Guide, Code of
Federal Regulations, and Office of Management and Budget Circulars. We tested
the Department of Forensic Sciences’ compliance with:

   •	 internal controls to identify policies, methods, and procedures designed to
      ensure the Department of Forensic Sciences met the fiscal and programmatic
      requirements and the goals and objectives of the grants;

   •	 grant drawdowns to determine whether grant drawdowns were adequately
      supported and if the Department of Forensic Sciences managed grant
      receipts in accordance with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of costs
      charged to the grant;

   •	 budget management and control to identify any budget deviations
      between the amounts budgeted and the actual costs for each cost category;

   •	 property management to determine if property items acquired with grant
      funds are tracked in a system of property records, adequately protected from
      loss, and used for grant purposes;

   •	 financial and grant progress reports to determine if those reports were
      accurate and submitted when due;

                                          2

   •	 grant goals and accomplishments to determine if the Department of
      Forensic Sciences met or was on track to meet the goals outlined in the grant
      programs and applications; and

   •	 monitoring contractors to determine whether the Department of Forensic
      Sciences took appropriate steps to ensure that contractors met the fiscal and
      programmatic requirements of the grants.

      In conducting our audit, we performed sample testing in the areas of internal
controls, expenditures, property management, and goals and accomplishments.

       Our results are discussed in detail in the Findings and Recommendations
section of the report. Our audit Objectives, Scope, and Methodology are discussed
in Appendix I.




                                         3

                  FINDINGS AND RECOMMENDATIONS

      We found that $5,998,347 of the total $7,525,176 in grant funds the
      Alabama Department of Forensic Sciences requested for DNA backlog
      reduction-related expenditures were allowable and supported. While the
      backlog had not been eliminated, it had been reduced from 1,869 cases in
      October 2009 to 1,025 cases in June 2013.

Internal Controls

       We reviewed the Department of Forensic Sciences’ financial management
system, policies and procedures, and Single Audit reports to assess the risk of non­
compliance with laws, regulations, guidelines, and terms and conditions of the
grants. To further assess risk, we performed testing of controls over the backlog
caseload and interviewed Department of Forensic Sciences’ officials about control
policies and procedures.

Financial Management System

        The financial management system included applications for payroll,
accounting, and purchasing, and allowed for the separate accounting of each grant.
Federal funds were deposited into a separate interest bearing account and there
was sufficient separation of duties. We concluded that the Department of Forensic
Sciences’ financial management system was adequate but we did not assess the
reliability of the system as a whole.

Single Audits

       According to the Office of Management and Budget Circular A-133, an entity
expending more than $500,000 in federal funds in 1 year is required to perform a
Single Audit annually, with the report due no later than 9 months after the end of
the audit period. The State of Alabama’s fiscal year runs from October 1 through
September 30 with the Single Audit report due by June 30 the following year. The
state’s expenditures were $9,189,749,349 in FY 2012, which required the city to
undergo a Single Audit. We also reviewed the Single Audit reports for FYs 2011
and 2010. Both reports were completed by the due date. The reports included
findings from other federal awards, however, there were no findings pertaining to
DOJ awards or crosscutting to all federal awards.

Backlog Verification Testing

       We tested the Department of Forensic Sciences’ control over its DNA case
backlog by judgmentally selecting samples of 90 cases (or 10 percent) of the 896
backlog recorded on March 31, 2012, and 80 cases (or 10 percent) of the 799
backlog recorded on August 26, 2013. We judgmentally selected the dates
reviewed. We performed our testing to determine if the cases had been properly
included in the backlog numbers. A backlog case is defined as a forensic biology or


                                         4

DNA case that has not been completed within 30 days of receipt in the laboratory.

We found that all cases were accurately recorded as backlogged cases.

Because the Department of Forensic Sciences properly recorded all sampled cases

as part of the backlog, we did not expand our testing to a sample representative of

the entire backlog.


Drawdowns

       The OJP Financial Guide requires grant recipients to time drawdown requests
to ensure that federal cash-on-hand is the minimum needed for disbursements to
be made immediately or within 10 days. Grant recipients have 90 days after the
end of the grant award period to drawdown grant funds for costs obligated during
the grant award period. Any funds not obligated within the grant award period will
lapse and revert to the awarding agency. The obligation deadline is the last day of
the grant award period unless otherwise stipulated. Department of Forensic
Sciences’ officials told us that drawdowns were accomplished on a reimbursement
basis. We reviewed the Department of Forensic Sciences’ accounting records and
compared expenditures to actual drawdowns. We found that all drawdowns were
adequately supported.

Grant Expenditures

        Allowable costs are those identified in the Office of Management and Budget
Circulars and in the grant program’s authorizing legislation. Grant costs must be
reasonable and permissible under the specific guidance for the grants. As of
June 2013, the Department of Forensic Sciences had drawn down a combined
$5,998,347 from all seven grants. We judgmentally selected and tested
$4,205,968 (or 70 percent) from these expenditures by comparing the Department
of Forensic Science’s accounting records to receipts and invoices. We found that all
expenditures were adequately supported except for $804 expended for supplies and
other materials. Regarding those expenditures, we determined that the
expenditures were allowable, properly recorded, and supported by invoices but the
purchase request forms could not be located. Department of Forensic Sciences’
officials told us that they were unable to locate supporting records for those
expenditures. We consider this finding immaterial and therefore do not question
the cost or make any recommendation.

Budget Management and Control

       According to the OJP Financial Guide, grant recipients may request a
modification to their approved budgets to reallocate dollar amounts among
approved budget categories. Grantees must obtain approval from OJP whenever:
(1) a budget revision changes the scope of the project and affects a cost category
that was not included in the original budget, or (2) cumulative transfers among
approved budget categories exceed or are expected to exceed 10 percent of the
total approved budget (10-percent rule). Failure to adequately control grant
budgets could lead to wasteful or inefficient spending of government funds.


                                         5

      We reviewed the Department of Forensic Sciences’ approved budget and
accounting records to determine whether it adhered to the 10-percent rule.
We found that for one grant (2009-DN-BX-K117), the Department of Forensic
Sciences made $47,294 in transfers, which exceeded the rule. This occurred when
the Department of Forensic Sciences made $92,949 in payments under a
contracting budget category even though that category had not been approved by
OJP. The Department of Forensic Sciences’ grant administrator told us that the
expenditures connected to the transfers were for an architectural renovation
project. The renovation project had been approved by OJP in the grant budget as
“other” costs and not “contractual” costs. We determined that had the $92,949 in
payments been properly categorized, the Department of Forensic Sciences would
not have exceeded the 10-percent rule; consequently, we make no
recommendation.

Property Management

        The OJP Financial Guide requires grant recipients to use good judgment in
the acquisition and management of property purchased from federal funds.
Property acquired with federal funds should be managed in accordance with the
awarding agency’s rules and procedures and submitted in an annual inventory
listing. Grant recipients are required to retain records for equipment,
nonexpendable personal property, and real property for a period of 3 years from
the date of disposition, replacement, or transfer at the discretion of the awarding
agency.

       Department of Forensic Sciences officials told us that grant-funded property
is accounted for by the Department of Forensic Sciences’ Asset Management
System. The system records a property and fund number to each property item.
Officials also told us that it conducts an annual inventory check of property and
equipment. We reviewed the Department of Forensic Sciences’ inventory records of
grant-funded property and judgmentally selected 71 property items valued at
$1,120,718 to physically verify. These items were located in the Department of
Forensic Sciences Auburn, Montgomery, and Birmingham laboratories and the
morgue located in Montgomery. We verified all property items in our sample and
concluded that the Department of Forensic Sciences had adequate controls over its
accountable property.

Grant Reports

      Grant recipients are required to submit both timely and accurate financial
and program reports. These reports describe the status of the funds of the project,
compare actual accomplishments to objectives, and provide other pertinent
information.

      Federal Financial Reports are due 30 days after the end of each calendar
quarter. A final financial report is due 90 days after the end of the grant period.



                                          6

      Progress Reports are due semiannually on June 30 and December 31.
Grantees are required to submit a final grant Progress Report within 90 days after
the end of the grant award period. Progress Reports are used to describe the
performance of activities or the accomplishment of objectives as set forth in the
approved award application.

Financial Reports

      We reviewed the four most recently submitted financial reports for six of the
seven grants (24 reports total) to determine whether the reports were submitted
when due. We also reviewed the three most recently submitted financial reports for
grant 2012-DN-BX-0062 because the remaining report was not due at the time of
our testing. We found that all 27 reports were submitted timely.

       We also reviewed the accuracy of the financial reports by comparing
Department of Forensic Sciences’ expenditures to accounting records. We found
that the reports were accurate.

Progress Reports

      We reviewed 23 Progress Reports to determine whether the reports were
submitted when due. 3 We determined that the reports were submitted on time.
We also tested whether the reports were accurate by selecting 14 facts to trace to
supporting documentation. 4 We determined that the facts were accurate.

Grant Goals and Accomplishments

       The Government Performance and Results Act provides a framework for
setting goals, measuring progress, and using data to improve performance.
Grantees are required to provide data that measures the results of their work in
order to ensure accurate calculation of their performance measures by OJP.

      We reviewed the grant applications and selected a judgmental sample of 21
grant goals, objectives, or performance measures to determine whether the
Department of Forensic Sciences had successfully implemented its grant programs.

      We traced these goals to supporting documentation. We found that the
Department of Forensic Sciences achieved 11 of the 21 goals we tested
(52 percent). We also found that the Department of Forensic Sciences was making
progress towards achieving the remaining 10 goals we tested (48 percent).


       3
        We reviewed nine Progress Reports for grants 2009-DN-BX-K117, 2010-DN-BX-K034, and
2011-DN-BX-K423; twelve Progress Reports for grants 2009-D1-BX-K014, 2010-DD-BX-0604, and
2010-DN-BX-K115; and two Progress Reports for grant 2012-DN-BX-0062.
       4
          These 14 facts are related to the Department of Forensic Sciences’ efforts to: (1) improve
operational infrastructure, (2) renovate laboratory space, (3) decrease the backlog, (4) achieve
national quality compliance standards, (5) achieve certain process goals for offender samples, and
(6) provide continuing education opportunities.

                                                  7

        We reviewed grant documentation to determine the progress of backlogged
cases. Exhibit 2 contains a graph showing the change in cases reviewed by all of
the laboratories and the backlog of cases. The graph begins with the award of the
first grant we audited and ends with the most recently available data. As shown in
the graph, from October through December 2009 the combined laboratories
processed 667 cases and the backlog consisted of 1,869 cases. Over the span of
the grants, cases processed generally increased, reaching a high of 1,763 cases in
2011 and recently falling to 1,224. During that same period the Department of
Forensic Sciences reduced its backlog from 1,869 cases to 1,025 cases (or 45
percent). In a general sense, the graph shows that efforts to increase the number
of cases processed tended to reduce the backlog of cases, which is the purpose of
the grants. While the backlog has not been eliminated, we conclude that
substantial progress has been made in reducing the backlog.

           Exhibit 2: Comparison of the Department of Forensic
 Sciences’ Backlog and Case Review between October 2009 and June 2013


2100

1900      1869
                                                1763 1763
1700             1720
                        1608
                               1566 1566
1500                                                                                              Backlog
                        1368 1373                                        1397 1397                Total Cases Reviewed
                                                             1352 1352
1300
                                    1263 1253
                                         1200                                        1224 1224
1100                                            1099
                                                                                           1025
                                                                   949   984
 900                                                         896               874   843
                                                       798
 700
          667    667

 500



Source: OIG Analysis of the Alabama Department of Forensic Sciences DNA Backlog

Monitoring Contractors

      According to the Code of Federal Regulations, grant recipients must maintain
a system for ensuring contractor conformance with the contract, follow-up on
purchases, evaluate contractor performance, and document whether contractors
have met the specifications of the contract.




                                                             8
       The grantee identified 166 vendors, contractors, organizations, or businesses
responsible for implementing grant-related activities. 5 We reviewed the contracts
awarded by the State of Alabama for Department of Forensic Sciences’ renovation
projects. We also interviewed Department of Forensic Sciences’ officials about their
policies and procedures for monitoring contractor performance. We concluded that
the Department of Forensic Sciences adequately monitored its contractors.

Conclusion

       The Alabama Department of Forensic Sciences generally complied with grant
requirements pertaining to internal controls, drawdowns, budget management,
expenditures, accountable property, reporting, goals and accomplishments, and
monitoring contractors.




       5
          The grant budget included costs for contractors for grants 2009-D1-BX-K014,
2010-DD-BX-0604, 2010-DN-BX-K115, 2011-DN-BX-K423, and 2012-DN-BX-0062. The use of
contractors or consultants was not approved in the budgets for grants 2009-DN-BX-K117 and
2010-DN-BX-K034.


                                               9

                                                                     APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether the Alabama Department
of Forensic Sciences used grant funds for costs that were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants; and whether the Department of Forensic Sciences met or
was on track to meet the goals and objectives outlined in the grant programs and
applications.

       The objective of the audit was to determine whether the Department of
Forensic Sciences complied with essential grant conditions pertaining to:
(1) internal controls, (2) grant drawdowns, (3) grant expenditures, (4) budget
management and control, (5) property management, (6) financial and grant
progress reports, (7) grant goals and accomplishments, and (8) monitoring
contractors.

       We conducted our audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient and appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

       Our audit scope covered the 2009 and 2010 Office of Science and Technology
Improvement and Forensic Infrastructure and Operations Improvement grants
respectively, as well as the 2009, 2010, 2011 and 2012 DNA Backlog Reduction
grants. We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria we audit
against are contained in the OJP Financial Guide, Office of Management and Budget
Circulars, and specific grant program guidance. The Department of Forensic
Sciences was awarded $7,525,176 under the DNA Backlog Reduction program from
2009 through 2012. We tested $4,205,968 (70 percent) of the $5,998,347 in grant
funds expended as of June 2013.

        In conducting our audit, we performed sample testing in grant expenditures,
property management, and grant goals and accomplishments. In this effort, we
employed a judgmental sampling design to obtain broad exposure to numerous
facets of the grants we reviewed, such as dollar amounts or expenditure category.
We selected judgmental sample sizes for the testing of each grant. This non-
statistical sample design does not allow extrapolation of the test results to the
universe from which the samples were drawn.

        In addition, we reviewed the timeliness and accuracy of financial and grant
progress reports and compared performance to grant goals. We did not assess the
reliability of the financial management system as a whole.


                                         10

                                                                                      APPENDIX II

      OJP’S RESPONSE TO THE DRAFT AUDIT REPORT

                                                   U.S. Department of Justice

                                                   (jfJice ofJustice Programs

                                                  Office of Audit, Assessment. and Management



                                                  Washington,   nc   2(}53!

      MAR ,0


MEMORANDUM TO:                 Ferris B. Polk
                               Regional Audit Manager
                               Atlanta Regional Audit Ollice
                               Ollice of the Inspector General


FROM:                         ctt~0t,;08~~
                               Acting Director

SUBJECT:                       Response to the Draft Audit Report. Audit of the National Institute
                               afJustice Grants Awarded to the Alabama Department of Forensic
                               Sciences

This memorandum is in reference to your correspondence, dated Febmary 11,2014, transmitting
the above-referenced draft audit report for the Alabama Department of Forensic Sciences. The
draft rep0l1 does not contain any recommendations. The Office of Justice Programs has
reviewed the draft audit rep011 and does not have any comments.

We appreciate the opportunity to review and comment on the draft audit rep011. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.


cc:     Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Gregory Ridgeway
        Acting Director
        National Institute of Justice

        Portia Graham
        Office Director. Office of Operations
        Nationallnstitutc of Justice

        Charlene Hunter
        Program Analyst
        National Institute of Justice



                                                 11

                                                                                        APPENDIX III

THE ALABAMA DEPARTMENT OF FORENSIC SCIENCES
     RESPONSE TO THE DRAFT AUDIT REPORT


                ALABAMA
                DEPARTMENT OF FORENSIC SCIENCES
                          1051 WIRE RD
                     AUBURN , ALABAMA 36832
                         (334) 8044-4848




February 25, 2014

Ferris B. Polk
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
Atlanta Regional Audit Office
75 Spring Street, Suite 1130
Atlanta, Georgia 30303


Dear Mr. Polk,

The State of Alabama, Department of Forensic Sciences, has reviewed the Draft Report provided by
your office on February 11,2014, regarding our compliance with the administration of seven (7)
DNA Backlog Reduction Grants awarded by the National Institute of Justice (NIJ) from 2009-2012.

The State of Alabama is pleased that the auditors from the Office of the Inspector General found our
Laboratory System to be in compliance with each of the objectives and essential grant conditions
assessed during the audit, pertaining to: (1) internal controls, (2) grant drawdowns, (3) grant
expenditures, (4) budget management and control, (5) property management, (6) financial and grant
progress reports, (7) grant goals and accomplishments, and (8) monitoring contractors.

The State of Alabama is pleased that the OIG independently concluded that " ... The Alabama
Deparrment of Forensic Sciences generally complied with grant requirements pertaining to internal controls,
drawdowns, budget management, expenditures, accountable property, reporting, goals and accomplishments,
and monitoring contractors", and made no recommendations in the Draft Report for any adjustments to our
current internal processes.

The Department of Forensic Sciences takes great pride in the administration of our Federal Grant
programs and we are very pleased that this independent and objective assessment by the OIG
demonstrated our continued compliance with the Federal Standards.

Should you have any further questions, please do not hesitate to contact me at your earliest
convenience.




Michael F. Sparks
Director

                                                  12

